The Department of Justice Office of the Inspector General (OIG) today released a report
examining the Federal Bureau of Investigation’s (FBI) progress in implementing
recommendations from prior reports involving the use of national security letters (NSL) and the
use of NSLs from 2007 through 2009. In sum, the OIG review found that the FBI and the
Department have fully implemented 31 of 41 recommendations made in our prior reports on
these topics, and 10 that require additional information or attention. In addition, because we
identified challenges in certain areas during our compliance review, we made 10 new
recommendations to the FBI and the Department to further improve the use and oversight of
NSLs.

NSLs are written directives that the FBI issues to third parties to obtain non-content telephone
and electronic communication records, financial records, and consumer credit
information. Today’s report is a follow-up to the OIG’s first and second reports on the FBI’s use
of NSLs after the enactment of the USA Patriot Act in 2001. In those reviews, the OIG found
repeated instances of the FBI’s misuse of NSL authorities and discovered the FBI’s practice of
issuing so-called exigent letters to obtain telephone records, instead of using NSLs or other
legal process. The OIG conducted an in-depth review of the FBI’s use of exigent letters and
other informal methods to obtain telephone records and issued a separate report on that topic
in January 2010.

The report issued today found that the FBI and the Department have devoted considerable
resources toward implementing the recommendations made in our past reports and taking
additional measures to improve the FBI’s compliance with NSL requirements. We determined
that the FBI and the Department have fully implemented 23 of 28 recommendations from our
first and second NSL reports by creating new internal controls, providing guidance and training
to FBI personnel, establishing new record-keeping practices, and conducting periodic reviews of
NSL use. Our compliance review of NSLs issued by the FBI in 2008 and 2009 demonstrated
that these efforts have resulted in substantial improvement in the FBI’s compliance with NSL
requirements.

Our review found that five recommendations from our prior NSL reports require additional
information or attention to address the accuracy of information entered into the FBI’s web-
based NSL workflow and database (the “NSL subsystem”) and improve the FBI’s record-keeping
practices. Our report identifies steps the FBI should take to address these issues.

In addition, during our compliance review, the OIG identified compliance challenges in certain
areas with regard to NSLs issued in 2007 through 2009, including FBI personnel’s identification
of information the FBI is not authorized to receive in response to an NSL, documentation of the
justification for an NSL request, and adherence to the FBI’s record-keeping policies. Our report
makes new recommendations to help the FBI and the Department address these challenges.

The OIG’s report also describes other noteworthy issues related to the FBI’s use of
NSLs. These issues include the scope of the phrase “toll billing records” in the Electronic
Communication Privacy Act (ECPA) NSL statute. The term is undefined, and our review found
that it is unclear whether all of the information the FBI receives in response to NSL requests for
toll billing records falls within the scope of the statute. Our report recommends that the FBI
and the Department revive their efforts to bring about a legislative amendment that defines the
phrase “toll billing records.”
Our review found that the FBI and the Department have fully implemented 8 of 13
recommendations made in the OIG’s 2010 report on the use of exigent letters and other
informal practices related to ECPA-protected telephone records. Five recommendations require
additional effort and attention from the FBI or the Department, three of which concern training
and guidance on certain aspects of the ECPA and the remaining two concern topics that the FBI
determined are classified or law enforcement sensitive.

The unclassified report released publicly today contains information that is redacted because
the FBI determined the information is classified, law enforcement sensitive, or “for official use
only.”

In addition, in a few instances, information has been redacted because the FBI has asserted the
information is protected from disclosure by the attorney-client privilege, attorney work product
doctrine, or deliberative process privilege. The OIG disagreed with some of these
assertions. Further, certain information concerning the Intelligence Oversight Board, a
component of the President’s Intelligence Advisory Board within the Executive Office of the
President (PIAB), has been marked “for official use only” by the PIAB. We disagree with these
markings as well.

The classified report, containing only those redactions of information the FBI asserted is
protected from disclosure by the attorney-client privilege or attorney work-product doctrine, has
been provided to the Director of National Intelligence, the Intelligence Oversight Board, and
Congress. The full classified report, without redactions, has been provided to the Department
and the FBI.

The unclassified version of the report released today, including an executive summary outlining
our findings and recommendations, can be found at the following
link: http://www.justice.gov/oig/reports/2014/s1408.pdf.
